Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Sonoma County Sheriff's DepartmentSanta Rosa, California

Report No. GR-90-03-005


February 2003
Office of the Inspector General
Note:   On September 30, 2002, the General Counsel of the Office of the Inspector General (OIG) advised the OIG Audit Division that 42 U.S.C. § 3796dd-2 limited the term of an Office of Community Oriented Policing (COPS) grant for the hiring of law enforcement officers to five years and the term of a grant for other purposes to three years; this opinion considered any grant renewal or extension periods to be included in the term limitations.  As a result, grant periods with terms that exceeded those in statute were considered to be in violation by the OIG and were addressed accordingly in our audit reports.  However, the OIG General Counsel, on June 13, 2003, rescinded his earlier opinion and now believes that the use of a "no-cost" grant period extension, in and of itself, is not inconsistent with the above statute reference.  As a result, findings developed solely because of this issue, if any, are no longer viewed as a violation of statute and the associated recommendation has been closed with no further action required by the entity audited or the COPS Office.
[This note added on 7/21/2003]


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Sonoma County Sheriff's Department (SCSD).  The purpose of the grants is to enhance community policing.  The SCSD was awarded a total of $1,615,140 to hire 16 new deputy sheriffs and redeploy the equivalent of 16.8 existing full-time deputy sheriffs from administrative duties to community policing.
We reviewed the SCSD's compliance with seven essential grant conditions and found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, reimbursement requests and retention of officers.  We found weaknesses in the areas of officer redeployment and community policing activities because the SCSD had not implemented the equipment and technology for the MORE 96 grant and the grant term exceeded the time allowed by law.  As a result of the deficiencies identified below, we question $36,800 in grant funds received and recommend an additional $378,340 in grant funds be deobligated and put to better use.1

The SCSD failed to expend MORE 96 grant funds within the time limit established by Congress and in accordance with the COPS Office requirement that grant funds be obligated during the term of the grant.
There has been no redeployment of officer full-time equivalent positions into community policing activities for the MORE 96 grant because the equipment and technology was not implemented.

This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.